<html>
<title> - SBA's ROLE IN CLIMATE SOLUTIONS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                    SBA's ROLE IN CLIMATE SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND REGULATIONS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JULY 21, 2021

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               

            Small Business Committee Document Number 117-027
             Available via the GPO Website: www.govinfo.gov
             
                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-123                      WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------              
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                        DEAN PHILLIPS, Minnesota
                         MARIE NEWMAN, Illinois
                       CAROLYN BOURDEAUX, Georgia
                         TROY CARTER, Louisiana
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                          ANDY KIM, New Jersey
                         ANGIE CRAIG, Minnesota
              BLAINE LUETKEMEYER, Missouri, Ranking Member
                         ROGER WILLIAMS, Texas
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        DAN MEUSER, Pennsylvania
                        CLAUDIA TENNEY, New York
                       ANDREW GARBARINO, New York
                         YOUNG KIM, California
                         BETH VAN DUYNE, Texas
                         BYRON DONALDS, Florida
                         MARIA SALAZAR, Florida
                      SCOTT FITZGERALD, Wisconsin

                 Melissa Jung, Majority Staff Director
            Ellen Harrington, Majority Deputy Staff Director
                     David Planning, Staff Director
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Dean Phillips...............................................     1
Hon. Beth Van Duyne..............................................     3

                               WITNESSES

Ms. Laurel Walk, Chief Lending Officer, Colorado Lending Source, 
  Ltd., Denver, CO, testifying on behalf of the National 
  Association of Development Companies (NADCO)...................     5
Mr. Rick Chapman, General Manager and Certified Marina Manager 
  (CMM), The Port of Sunnyside Club, Inc., Stillwater, MN, 
  testifying on behalf of the Midwest Marina Association in his 
  role as President..............................................     7
Dr. Lynn Abramson, President, Clean Energy Business Network, 
  Washington, DC.................................................     8
Mr. Mark Glenn, Owner and Chief Executive Officer, FASTSIGNS, 
  Carrollton, TX, testifying on behalf of the International 
  Franchise Association (IFA)....................................    10

                                APPENDIX

Prepared Statements:
    Ms. Laurel Walk, Chief Lending Officer, Colorado Lending 
      Source, Ltd., Denver, CO, testifying on behalf of the 
      National Association of Development Companies (NADCO)......    27
    Mr. Rick Chapman, General Manager and Certified Marina 
      Manager (CMM), The Port of Sunnyside Club, Inc., 
      Stillwater, MN, testifying on behalf of the Midwest Marina 
      Association in his role as President.......................    34
    Dr. Lynn Abramson, President, Clean Energy Business Network, 
      Washington, DC.............................................    38
    Mr. Mark Glenn, Owner and Chief Executive Officer, FASTSIGNS, 
      Carrollton, TX, testifying on behalf of the International 
      Franchise Association (IFA)................................    46
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Clearly Clean Products, LCC..................................    53

 
                    SBA's ROLE IN CLIMATE SOLUTIONS

                              ----------                              


                        WEDNESDAY, JULY 21, 2021

              House of Representatives,    
               Committee on Small Business,
                         Subcommittee on Oversight,
                           Investigations, and Regulations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Dean Phillips 
[chairman of the Subcommittee] presiding.
    Present: Representatives Phillips, Newman, Craig, Chu, 
Evans, Van Duyne, Hagedorn, Meuser, and Donalds.
    Chairman PHILLIPS. Good morning, everybody. I am going to 
call the meeting to order.
    And without objection, the Chair is authorized to declare a 
recess at any time.
    Let me begin by saying that standing House and Committee 
rules and practice will continue to apply during hybrid 
proceedings. All members are reminded that they are expected to 
adhere to these standing rules including decorum.
    House regulations require members to be visible through a 
video connection throughout the proceeding, so please keep your 
cameras on. And please remember to remain muted until you are 
recognized to minimize background noise. If you have to 
participate in another proceeding, please exit this one and log 
in later.
    In the event a member encounters technical issues that 
prevent them from being recognized for their questioning, I 
will move to the next available member of the same party and I 
will recognize that member at the next appropriate time slot 
provided they have returned to the proceeding.
    For those members and staff physically present in the 
Committee room today, we will continue to follow the most 
recent OAP guidance. Masks are no longer required in our 
meeting space for members and staff who have been fully 
vaccinated. All members and staff who have not been fully 
vaccinated are still required to wear masks and socially 
distance. I sincerely hope we do our part to protect each other 
and our staff.
    I will move to my opening statement.
    The coronavirus pandemic may have been the most severe and 
widespread shock to the global economy in recent memory. It was 
a harsh reminder of the economic and social injury that come 
with being unprepared. And America's small businesses have been 
particularly hard hit, which is why Congress quickly 
established emergency relief programs like the Paycheck 
Protection Program, which has provided more than $798 billion 
in economic aid to 8.5 million small businesses and nonprofits 
across our country.
    But throughout the pandemic, we have witnessed the 
heartbreaking human cost of a slow and oftentimes uncoordinated 
response and our businesses are still battling the economic 
consequences.
    I look forward to this Subcommittee hearing and I look 
forward to future hearings on the challenges that inflation and 
labor shortages are also posing to small businesses. But today, 
I want to focus our attention on how the lessons of the COVID-
19 pandemic can help inform our response to another looming 
crisis, and that is our rapidly changing climate.
    Scientists and experts have long warned of the devastation 
of a pandemic scale climate crisis, but recently, those 
predictions have transformed into devastating realities. Today, 
historic droughts, rising sea levels, and other extreme weather 
events pose a significant risk to life as we know it and to our 
businesses. In the same way that we could not have imagined how 
the pandemic would alter our lives and livelihoods, we can 
hardly anticipate the challenges that await us if our 
conservation and sustainability efforts remain unrealized. With 
small firms accounting for 99 percent of all businesses and 
much of our economic growth, they will be important 
participants in the fight against climate change. Businesses, 
governments, and individuals have a vital role to play as we 
work to manage disruption risk, invest in more resilient 
infrastructure, reduce our carbon footprint, and build a green 
economy.
    While short-term economic challenges, such as unemployment, 
supply chain management issues, labor shortages, inflation, and 
shipping delays are important outstanding matters, global 
environmental threats only stand to worsen if these issues in 
the long term and the fact of the matter is we must be solving 
for each and every one of them.
    This will present monumental challenges but also immense 
opportunities. By innovating to go green, small businesses can 
help create new industries and great paying jobs as part of the 
clean energy economy. The clean energy economy already covers 
many industries that are dominated by small businesses. For 
example, the construction, manufacturing, and renewable energy 
sectors all have a very high percentage of small firms. In 
2020, renewable energy provided 21 percent of energy 
consumption in the United States and fossil fuel consumption 
hit its lowest level since 1991.
    As the federal government prioritizes combatting climate 
change, the renewable sector will continue to grow. As the 
adoption of wind and solar and other renewable energy systems 
increase, small business owners stand to benefit.
    Going green also presents many benefits for small 
businesses on a micro level. Green energy is often the cheapest 
way to power a business and switching to renewables can often 
boost an entrepreneur's bottom line. Small business owners who 
save money through energy efficiency improvements can 
reallocate it to capital expenditures to make their enterprises 
more competitive and profitable. Renewable investment can also 
uplift the American economy as a whole. Seizing on the 
opportunities the green economy creates can help revitalize 
America's energy production, manufacturing, and position 
America as a clean energy leader in the world.
    These benefits make it plain that the federal government 
must offer adequate incentives for businesses to go green. The 
SBA has a clear role in supporting the small businesses that 
want to make the transition to renewables. The agency already 
has several programs that supply small firms with capital to 
undergo business improvements, purchase assets, and rebuild 
after disasters. It is vital that we take a close look at these 
programs and find ways to optimize them to serve businesses 
that wish to switch to renewables or make other climate related 
decisions.
    Investing in energy infrastructure improvements or 
preparing a business for future weather events can be costly 
endeavors as we all know. That is why the SBA's programs must 
ensure that they are set up to help small businesses 
confronting the realities of the climate crisis. By crafting 
programs that understand the level of vulnerability small firms 
face, we can better prepare for future environmental threats to 
our nation, its economy, and the health of our fellow citizens. 
I hope this hearing will enable us to increase the resilience 
of small businesses that were very affected by the pandemic and 
continue to need our support in their endeavors.
    Now I would like to yield to the Ranking Member, Ms. Van 
Duyne, for her opening statement.
    Ms. VAN DUYNE. Thank you very much, Mr. Chairman.
    Small businesses are the lifeblood of the American economy. 
They spur innovation, provide the majority of jobs, and keep 
America's uniquely entrepreneurial spirit thriving. At the 
beginning of 2020, we saw small business success at record 
levels, and as everyone on this Committee is brutally aware, 
the COVID-19 pandemic brought the economy to a standstill. 
These shutdowns forced small businesses to temporarily close 
their doors, lay off their employees, and for some shattered 
their dreams entirely.
    But even while enduring such a difficult moment in our 
nation's history, the resilience of America's entrepreneurs 
shine through. Small businesses quickly adapted to this new 
environment and the SBA's COVID relief programs including the 
successful Paycheck Protection Program helped many of America's 
smallest employers keep the bills paid as they waited to 
reopen.
    Yet even after getting past seemingly never-ending state 
and local restrictions, small businesses are now facing 
unexpected competition from the federal government. The Biden 
administration seems relentless in its attempt to destroy small 
businesses. Today, the businesses fueling growth in our 
communities are experiencing massive labor force shortages, 
rapidly increasing inflation, and an unreliable supply chain. 
And unfortunately, all of these individually disastrous issues 
have something in common--tone-deaf Federal policies.
    To top it all off, the small businesses I have spoken with 
are already preparing for the next disaster. This 
administration is hurling their way which is tax hikes. After 
meeting with countless small businesses back at home in North 
Texas, there was not one that I talked to who has not already 
increased wages and benefits to attract workers and yet they 
are still struggling to find good help.
    So last week, with the help of local elected officials, I 
hosted a job fair to connect these hurting businesses with 
workers looking for their next opportunity. If there is one 
takeaway that I can share today it is that America is ready to 
reopen. We need to give small business the room to succeed and 
allow American workers to earn their way forward.
    While I left that job fair with a great sense of optimism 
in the people of this country and their never-ending 
resiliency, the work here in Congress is far from over. Prices 
today are notably higher than at this time last year and the 
solution given by this administration is to spend trillions 
more. And who will fit the bill? The exact same small 
businesses and employees we are allegedly trying to help.
    Small businesses can lead this recovery but they must be 
given the opportunity to do so in their own way. The American 
entrepreneur, not this administration's checkbook, is our 
country's greatest asset. I look forward to promoting an 
environment in which small businesses can once again drive our 
country forward.
    I want to thank all of our witnesses for joining us here 
today, Mr. Chairman, and I yield back.
    Chairman PHILLIPS. Thank you, Ms. Van Duyne. The gentlelady 
yields back.
    Now I will take a moment to explain how this hearing will 
proceed. Each witness will have 5 minutes to provide a 
statement and each Committee member will have 5 minutes for 
questions. Please ensure that your microphone is on when you 
begin speaking and that you return to mute when you are 
finished.
    With that, I will begin to introduce our witnesses.
    Our first is Ms. Laura Walk. Ms. Walk is the chief lending 
officer with Colorado Lending Source, a certified development 
company with a mission to foster the economic growth of diverse 
small businesses. Colorado Lending Source utilizes the SBA 504 
and 7(a) loan programs to offer access to capital for 
entrepreneurs as well as the SBA Community Advantage and 
Colorado main street programs. Ms. Walk has assisted in the 
approval of over 1,400 SBA 504 loans which have created more 
than 10,000 jobs and injected over $2 billion into the economy. 
We appreciate you being with us today, Ms. Walk.
    Our second witness is Mr. Rick Chapman, the general manager 
of Sunnyside Marina on the St. Croix River in Minnesota and the 
president of the Midwest Marina Association representing 25 
marinas on the St. Croix River, the Mississippi River, Lake 
Minnetonka, and Lake Superior, with over 6,000 boaters. Mr. 
Chapman is also a resident of Bloomington located in my 
district, Minnesota's 3rd. We appreciate you being with us 
today, Mr. Chapman.
    Our third witness is Dr. Lynn Abramson, the president of 
the Clean Energy Business Network, the small business voice for 
the clean energy economy, representing over 3,000 businesses in 
all 50 states. Dr. Abramson has a Ph.D. in marine and 
atmospheric sciences from Stoney Brook University where her 
research on carbon cycle processes spurred her interest in 
advancing low carbon energy solutions. We appreciate you being 
with us, Doctor.
    Now, Ms. Van Duyne, will introduce her witness.
    Ms. VAN DUYNE. Our fourth witness is Mark Glenn. Mr. Glenn 
is the owner and chief executive officer of four different 
FASTSIGNS locations in the Dallas area and one in Carrollton, 
Texas, which is actually in my district. FASTSIGNS is a banner 
and graphics sign company with franchise locations across the 
globe. Prior to being a franchisee owner with his wife Shawn 
and employing approximately 30 workers, Mr. Glenn worked in the 
corporate headquarters office of FASTSIGNS in Carrollton, 
Texas. With a business management degree from Southeastern 
Oklahoma State University, Mr. Glenn brings an entrepreneurial 
spirit to his company daily. Mr. Glenn, we appreciate you 
taking time away from your busy schedule running four different 
small businesses, and I know your expertise as a business owner 
will be important as we continue to examine the small business 
ecosystem.
    I thank you for joining us this morning. I would like to 
welcome all of the other witnesses as well. I look forward to 
this morning's conversation and I yield back.
    Chairman PHILLIPS. Thank you, Ms. Van Duyne. And I join you 
in welcoming all of our witnesses.
    And we will start with Ms. Walk. You are recognized for 5 
minutes for your opening statement.

  STATEMENTS OF LAUREL WALK, CHIEF LENDING OFFICER, COLORADO 
    LENDING SOURCE, LTD.; RICK CHAPMAN, GENERAL MANAGER AND 
  CERTIFIED MARINA MANAGER (CMM), THE PORT OF SUNNYSIDE CLUB, 
INC.; LYNN ABRAMSON, PRESIDENT, CLEAN ENERGY BUSINESS NETWORK; 
    MARK GLENN, OWNER AND CHIEF EXECUTIVE OFFICER, FASTSIGNS

                    STATEMENT OF LAUREL WALK

    Ms. WALK. Good morning, Chairman Phillips, Ranking Member 
Van Duyne, and distinguished members of the Subcommittee. Thank 
you so much for having me today.
    My name is Laurel Walk and I am the chief lending officer 
at Colorado Lending Source, a certified development company, or 
known as a CDC, based here in Denver, Colorado.
    Colorado Lending Source is also a member of the National 
Association of Development Companies (NADCO), the trade 
association representing more than 200 private, nonprofit CDCs. 
I am also pleased today to testify on behalf of NADCO and my 
CDC colleagues.
    I am honored to discuss the role of the Small Business 
Administration lending programs, particularly the 504 program 
in supporting a resilient 21st century economy, including 
lending in the energy space.
    First, the 504 program is SBA's premier economic 
development tool and CDCs who deliver the program are dedicated 
to building strong communities across the country. The program 
is primarily used to finance real estate, including new 
construction, remodeling, retrofitting existing real estate and 
equipment. The program also has specific energy reduction goals 
that allows borrowers to access more capital.
    Like other public policy and job creation goals, the 
energy-related goals of the program have made a real impact. 
Colorado Lending Source was able to see this impact firsthand 
when we partnered with the Garden of the Gods resort in 
Colorado Springs on two different projects. Their second 
project was made possible by using the renewable energy 
program. The business is women-owned and our borrowers, Brenda 
Smith and Judy Mackey have stated that thanks to the renewable 
energy program, the property has been able to improve their 
energy efficiency. All of this equipment not only saved money 
in the first year that they were installed but continues to 
save and provide energy efficiency.
    There are many small businesses that must make hard choices 
regarding what they can afford to do at any time. We see the 
renewable energy program as a way for businesses to focus on 
energy efficiency at the same time they are improving their 
property.
    The scope and reach of the 504 program could be broadened. 
First, Congress should consider reducing the required equity 
injection for green energy projects from 10 percent to 5 
percent. This is something the Small Business Committee has 
already considered and included for manufacturing loans in the 
bipartisan 504 Modernization and Small Manufacturing 
Enhancement Act of 2021. In particular, a smaller equity 
injection from the borrower would increase access to smaller 
projects under $500,000. This is a category often overlooked by 
traditional lending.
    As small businesses compete for commercial real estate in 
today's market, a smaller equity requirement would truly expand 
access to capital for those businesses and allow them to 
conserve precious capital while filling a gap in conventional 
financing which 504 was created for.
    Secondly, Congress should consider increasing the loan size 
for renewable energy projects which is another enhancement 
provided for manufacturers in H.R. 1490.
    As small businesses recover and look to scale, the current 
loan size, coupled with real estate and construction costs will 
likely impact the ability of the program to help small 
businesses achieve their scaling goals in the future.
    SBA's local district offices could also partner more 
actively with at least one resource partner such as their local 
small business development center to promote the benefits of 
implementing the alternative energy sources.
    There are also administrative changes the SBA could make. 
For example, there is an instituted cap of $16.5 million as the 
maximum amount of 504 loans for a borrower under the existing 
energy goals for the program. SBA could reassess and consider 
eliminating this. One of the benefits that we have heard over 
and over from our borrowers is the ability to come back and 
utilize the program as they grow which happens with the energy 
program.
    Finally, but very importantly, the 504 program is available 
to borrowers across the country thanks to an annual 
authorization by Congress. The authorization level for the 
amount of 504 loans that can be approved has been at $7.5 
billion for years. The combination of recovering from the 
pandemic and the higher profile the SBA has created has 
resulted in high demand. As an industry, we are thrilled to be 
helping so many small businesses. However, we have real 
concerns about the possibility of reaching the $7.5 billion cap 
before the end of the fiscal year. If the program reaches the 
authorization cap, the program will shut down and we will be 
unable to make any 504 loans. It is critically important the 
program be available to small businesses during this integral 
recovery period. The CDC industry supports efforts to provide 
flexibility for the administrator to increase the 504 
authorization cap up to 15 percent which is consistent with the 
7(a) program.
    Thank you again for having me here today and I look forward 
to answering any questions.
    Chairman PHILLIPS. Thank you, Ms. Walk.
    Now, Mr. Chapman, you are recognized for 5 minutes for your 
opening statement.

                   STATEMENT OF RICK CHAPMAN

    Mr. CHAPMAN. Chairman Phillips and Ranking Member Van 
Duyne, and members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the Small 
Business Administration's role in climate solutions.
    My name is Rick Chapman. I live in Bloomington and work in 
Stillwater, Minnesota, the land of 10,000 lakes. And like 70 
percent of my fellow Minnesotans, I am an outdoor enthusiast. I 
am fortunate that I am also able to further foster the 
enjoyment and protection of our great outdoors through my role 
as general manager and certified marina manager at Sunnyside 
Marina, a private marina on the St. Croix River. I also serve 
as the president of the Midwest Marina Association, 
representing 25 marinas on the St. Croix River, Mississippi 
River, Lake Minnetonka, and Lake Superior with over 6,000 
boaters.
    MMA works collaboratively with the National Marine 
Manufacturers Association, the Association of Marina 
Industries, and the Marine Retailers Association of the 
Americas. Sunnyside Marina, along with other marinas on the St. 
Croix River, have been leaders in the state's Clean Marina 
program as part of a national program that encourages marina 
operators and recreational boaters to protect water quality by 
engaging in environmentally sound operating and maintenance 
procedures.
    I am proud to report we were the first marina in Minnesota 
to install a water recycling system to capture, filter, and 
reuse the water we use to wash boats at the end of the season, 
helping to keep acids and metals out of the water. Lead by the 
recreational boating industry, the outdoor recreation economy 
is a major contributor to the U.S. economy accounting for 2.1 
percent of GDP, $788 billion in economic output, and most 
importantly, 5.2 million American jobs. New powerboat sales in 
the U.S. increased last year by an estimated 13 percent 
compared to 2019, reaching a 13-year high. Four hundred fifteen 
first-time boat buyers entered the market in 2020.
    This rise in outdoor recreation has both showcased the 
popularity of such activities as a safe and fun way to spend 
time with loved ones and illuminated one of the most pressing 
issues facing our industry. We need resilient infrastructure to 
protect access to recreation and marine businesses and can 
adapt to our rapidly changing climate.
    Small businesses in the outdoor sector depend on robust 
infrastructure to be able to make their living and they often 
face the brunt of natural disasters like flooding, wildfires, 
hurricanes, earthquakes, tornadoes, and mega droughts, leaving 
them damaged and unable to operate. When they are unable to 
operate, the jobs and families they support are at risk. Local 
economies depend on small businesses like these.
    According to FEMA, natural disasters have cost the U.S. 
$800 billion in the past decade and have been the direct cause 
of thousands of businesses shutting down. Small businesses are 
particularly susceptible to these dire economic effects with 40 
to 60 percent never reopening after a natural disaster.
    I thank the Committee for holding today's hearing to 
discuss how the SBA can better support small businesses in 
providing climate solutions and for allowing me to shine a 
light on the significant role small businesses play in driving 
the outdoor economy. Small businesses in our industry are in 
jeopardy without investments in climate resilient recreation 
infrastructure. The time to fortify recreation infrastructure 
from the impacts of climate change is now. Fortunately, a 
bipartisan infrastructure deal is in negotiation and 
infrastructure resiliency is a primary for both the 
administration and the bipartisan group of senators leading 
this process.
    The infrastructure package presents an opportunity to 
utilize the SBA as a resource to help small businesses protect 
themselves from the costly damages of climate change. To 
accomplish this, Congress should include language from the 
PREPARE Act and the resiliency title of any infrastructure 
package that moves forward. To allow small businesses to access 
much needed capital, to invest in disaster resilient 
infrastructure, this landmark legislation will allow the SBA to 
make low interest, fixed rate loans of up to $500,000 to small 
businesses to invest in their properties to protect against 
natural disasters.
    We applaud the Committee on small business in spearheading 
this proposal that would create an integral tool for building 
more resilient recreation access, protecting vulnerable 
communities, and rebuilding local economies. The recreational 
boating industry looks forward to continue to work with the 
members of this Subcommittee and other Committees of 
jurisdiction to protect and expand opportunities for recreation 
going forward. And we thank you very much for the opportunity 
to appear today and I look forward to taking your questions.
    Chairman PHILLIPS. Thank you, Mr. Chapman.
    And now I recognize Dr. Abramson for 5 minutes for your 
opening statement.

                   STATEMENT OF LYNN ABRAMSON

    Ms. ABRAMSON. Thank you, Chairman Phillips, Ranking Member 
Van Duyne, and members of the Subcommittee. Thank you for the 
opportunity to testify today on the SBA's role in climate 
solutions.
    I also want to take a moment to thank the Committee on 
Small Business for providing critical lifelines of support for 
small businesses throughout the COVID-19 pandemic.
    I am Lynn Abramson, president of the Clean Energy Business 
Network, which serves as a small business voice for the clean 
energy economy. Our nonpartisan, nonprofit organization works 
with more than 5,000 small and mid-size clean energy business 
leaders across all 50 U.S. states and a very broad spectrum of 
energy technologies.
    These businesses include innovators like Exergy Predictive 
in St. Paul, Minnesota, which is developing cloud computing to 
support electric vehicle fleet deployment. And they include UHV 
technologies in Fort Worth, Texas, which has developed an X-ray 
technology to enable faster and more efficient recycling of 
scrap metals.
    I would like to share with you my perspective of clean 
energy as an economic engine, the role of small businesses, and 
what policies can best support our nation's clean tech 
entrepreneurs.
    First, clean energy drives a competitive economy. The past 
decade has seen significant growth in energy efficiency, 
natural gas, and renewable energy. Today, more than 3 million 
Americans earn a living in the clean energy economy with 
roughly 70 percent of those workers employed by small 
businesses.
    As we rebuild our economy investing in new clean energy 
technologies is one of the best things that we can do to create 
good jobs for regular people right now while reaping long-term 
benefits for decades to come.
    First, we must continue to invest in energy innovation 
programs such as the American Made challenges, the advanced 
research projects, agency energy, and the small business 
innovation research and small business technology transfer 
programs.
    There are also a number of ways we can make these crucial 
programs even more accessible and impactful for entrepreneurs. 
I have outlined these recommendations in my written testimony 
and I am happy to speak on them further.
    We must also continue to build an ecosystem of 
entrepreneurial support throughout the nation through regional 
centers such as the national laboratories, incubators and 
accelerators, and small manufacturers. And we must improve 
financing opportunities for demonstration projects to overcome 
the final valley of death to commercialization and help turn 
energy innovations into successful companies.
    Finally, we must strengthen Federal coordination to help 
entrepreneurs access the breadth of available programs to 
support their work. The Small Business Administration can play 
an important role in coordinating with other Federal agencies 
to curate and promote such information.
    My written testimony includes a link to a letter signed by 
more than 200 business leaders urging Congress to act swiftly 
on an infrastructure package that addresses such 
recommendations. We hope that the Senate's bipartisan Energy 
Infrastructure Act and the House's LIFT Act will provide a 
basis for bicameral, bipartisan negotiation and enactment of an 
infrastructure deal.
    Investing in American technology has a history of paying 
off. From landing a man on the moon to putting computers in our 
pockets, to developing COVID vaccines, government investment 
has been key to America's success. It is time to empower 
America's small clean energy businesses to unlock their most 
brilliant ideas for tackling climate change while building the 
economy of the future.
    Thank you, and I look forward to your questions.
    Chairman PHILLIPS. Thank you, Doctor.
    And now I recognize Mr. Glenn for 5 minutes for your 
opening statement.

                    STATEMENT OF MARK GLENN

    Mr. GLENN. Good morning, Chairman Phillips, and Ranking 
Member Van Duyne.
    Thank you for your strong bipartisan support efforts to 
save businesses like mine through the pandemic. I was a 
recipient of PPP loans and I am grateful for your support. It 
really made a difference in our business.
    My name is Mark Glenn, and I am the CEO and multiunit owner 
of four FASTSIGNS locations in the Dallas area. My wife Shawn 
and I became business owners in 2011 after spending 15 years in 
the corporate headquarters of FASTSIGNS. FASTSIGNS is a sign 
and visual graphics company and is the sign industry's leading 
franchise system. The system is 100 percent owned by 
franchisees just like me. I do believe that all stakeholders, 
including small businesses, have a role to play in the 
responsible, sustainable stewardship of our planet. But, as a 
small business owner still recovering from the pandemic, my 
main focus right now is on rebuilding our employee team and 
navigating policy uncertainties that may have real world bottom 
line impacts on our balance sheet.
    I would like to share my experience with the critical labor 
shortage issue. It is real and it is crippling to the business. 
My four locations generally have 28 to 30 staff. I currently 
have four open positions that cannot be filled right now due to 
a lack of quality applicants. That is roughly 10 percent of my 
workforce is unfilled. I strive to be an employer of choice 
through competitive wages and career building opportunities. 
These are good paying jobs in a strong industry with a career 
that can be built upon. We have made extraordinary efforts to 
recruit and hire talented candidates. Not only have we posted 
job openings on traditional online job platforms and on social 
media, but we are offering referral incentives and joining 
local job fairs like the one recently hosted by Ranking Member 
Van Duyne.
    My on-the-ground experience is that the expanded 
unemployment insurance is keeping people home right now. I 
fully understand and I appreciate that there are continued 
childcare challenges as we come out of the pandemic, but my 
firsthand real-world experience is that candidates are sharing 
during these hiring processes.
    The staffing shortage is without a doubt my biggest hurdle 
to meet customer service and market needs. I am worried about 
potential tax increases and threats to the franchise business 
model. Policy uncertainties have real-world impacts because our 
everyday business decisions rely on certainty. For those of us 
outside of Washington, D.C., we often hear about potential tax 
increases associated with infrastructure, spending, or budget 
debates. I want to emphasize that increasing taxes on small 
businesses can take the lifeblood needed to help with this 
recovery. This forces us to take cash and allocate to taxes 
rather than increasing pay for staff or creating promotional 
opportunities for our employees.
    As you know, small businesses' incomes appear on their 
personal tax return. There is a real difference between a hedge 
fund manager's tax return showing over $1 million in income 
where zero jobs are created and a small business owner that 
shows a profit that is essential to take risk and create jobs.
    I am concerned about the House's support for the PRO Act 
and how close this bill is to becoming law. I am concerned 
about how franchise brands will react to the increased 
liability.
    As franchise contracts come up for renewal, franchise 
brands will be encouraged to convert locations into corporate 
locations. These policies hurt small business owners the most. 
I welcome the opportunity to work with you to find a better 
solution for workers and business owners. The franchising 
sector needs certainty and should be supported, especially 
because it provides wealth-building opportunities that are 
important for underserved communities. Franchising is also good 
paying jobs.
    In my written testimony, I included a new study by IFA and 
Oxford Economics that shows a wage and benefit premium 
associated with franchise jobs in certain industries. Thirty-
two percent of respondents also said they would not be business 
owners without franchising which translates to about 60,000 
small businesses across the economy. That percentage was even 
higher for women-owned and first-time business owners. 
Franchisees also have material higher sales on average than 
independent small businesses including among women and people 
of color. Together, I truly believe we can build a stronger 
economy if the right policy environment is provided.
    Thank you again for allowing me to testify today. I look 
forward to your questions.
    Chairman PHILLIPS. Thank you, Mr. Glenn. And gratitude to 
all of our witnesses for being with us today and for your work 
and engagement on this issue.
    I will begin by recognizing myself for 5 minutes. My first 
question is to you, Ms. Walk.
    You spoke of the 504 program which, of course has 
accelerated in the post-pandemic economy as businesses and 
optimism have improved, but you reference that we may be 
hitting the $7.5 billion cap sooner than expected which would 
cause the program to shut down before the end of the fiscal 
year. So could you elaborate for our Committee how a 504 
program shutdown would impact the ability of small businesses 
to access affordable growth capital?
    Ms. WALK. Yeah, absolutely. Thank you for your question. 
Yes.
    Since the recovery 504 volume has been higher than we have 
seen in a long time and we have seen more and more businesses 
taking advantage of the program with its low interest rates and 
long-term fixed rate for the borrower, it is very attractive 
for businesses that are looking to purchase real estate. 
Overall, nationwide, we are up 37 percent in volume which just 
shows the appetite of businesses that are looking to make that 
commitment and purchase a building and really recovery from the 
pandemic robustly.
    If the program were to shut down, all of those businesses 
would be in a waiting pattern until the program reopened in 
October, and that would be very detrimental for our businesses. 
Businesses that are out trying to purchase real estate are 
competing with investors and other entities that have more 
cash. They are constantly being told if they do not meet their 
closing deadlines they will not get the property. If there is a 
delay in how they get their financing, or worse, if they are 
not able to get the financing they were planning on with a 
lower equity requirement, they will lose the property and that 
could seriously impact their business.
    One of the wonderful pieces of the 504 program is that it 
allows borrowers to bring 10 percent equity injection to the 
project. Typically, on a conventional commercial real estate 
loan you are seeing that at 20-25 percent. So that savings of 
capital is so critical for our businesses. And if there was 
anything that would hinder that from the program, if there was 
a pause, if businesses had to wait, it would be very 
detrimental.
    Chairman PHILLIPS. So fair to say that time is of the 
essence?
    Ms. WALK. Yes. Very much so.
    Chairman PHILLIPS. All right. Thank you.
    Mr. Chapman, you spoke of natural disasters, of course, 
impacting small businesses throughout the country from powerful 
storms to fires to drought to low water levels. And of course, 
in our home state of Minnesota, oftentimes even a lack of snow 
during the winter season are affecting small businesses. What 
can you tell us about how your business has adapted throughout 
the pandemic and what lessons have you learned that might 
support our response to climate events in the future?
    Mr. CHAPMAN. Well, so currently in Minnesota right now we 
are experiencing low water. And the thing about the climate 
change is we do not know whether it is going to be low water or 
high water or what the issue is going to be. But that is why we 
spend so much time talking about infrastructure because all of 
that infrastructure, from locks and dams to just simple things 
that we have to do to prepare for high water, for instance, 
making sure that power sources are above the highest waterline 
and making sure that fuel tanks are secure if they are above 
ground. Those are the kind of things that unfortunately we 
often react to after the disaster has occurred instead of being 
proactive and having those things in place before the disaster 
occurs. So I think that the Small Business Administration could 
really help in this situation especially with small marinas, 
small individual owners to help them prepare before the 
disaster strikes if you will. I do not know if I did a great 
job of answering that question.
    In regards to the pandemic, I should just say the pandemic 
had the opposite effect on the recreational boating industry. I 
am sure all of you know that anything to do with outdoor 
activity is seeing an enormous boom. We were not expecting 
this. I was last March applying for payroll protection and then 
all of a sudden we had the busiest season we have ever had and 
now we are doing it again this year with even a busier season. 
So the pandemic for us has been incredibly good for business. I 
feel sorry for small businesses that cannot say that but for 
the recreational boating industry, we are really seeing a boom 
because of the pandemic.
    Chairman PHILLIPS. And fair to say that you would like to 
see Congress and the SBA prioritize resiliency, investments, 
and support?
    Mr. CHAPMAN. Absolutely. That is the whole point is trying 
to make sure that we are building better before the disaster 
strikes would be really beneficial to these small operators. I 
represent a number of privately, family-owned marinas from the 
Midwest Marina Association and that is what they are telling me 
is that it would be really, you know, it is not just the locks 
and dams which, you know, falls on the Army Corps. It is the 
stuff that we can do at our individual marinas to help prepare 
ourselves for the disaster that might be coming next.
    Chairman PHILLIPS. And I think you just coined a new 
phrase: build back better before. You just added another B to 
that one.
    Thank you. I appreciate your answer.
    Last month, the International Trade Center at the United 
Nations issued a report on the pandemic entitled ``Empowering a 
Green Recovery.'' The report states that while the range of 
likely impacts varies depending on the model used, the economic 
damage of climate change could be as bad as having a pandemic 
the size of COVID-19 every 10 years.
    Ms. Abramson, the pandemic revealed just how vulnerable 
small businesses are to unanticipated economic events. So why 
is it important that we have a conversation about aligning our 
resources to mitigate climate events now as businesses are 
still struggling to recover from COVID-19 impacts?
    Ms. ABRAMSON. Thank you.
    I think some of the points that both Ms. Walk and Mr. 
Chapman raised resonate with the clean energy businesses that I 
work with, as well as their customers, the small businesses 
around the nation in terms of preparation. And so you raised 
earlier the concern about how COVID-19 caught us all unprepared 
and unaware. And I think it has really highlighted how much we 
need to anticipate and plan for risk. And certainly, climate 
change related natural disasters, you know, extreme weather, as 
well as sort of the changing impacts on our economy are things 
that we need to prepare for. So investing in resilient 
infrastructure up front to better accommodate these changes is 
absolutely critical for all of our small businesses.
    And I think in addition to the general impact that it will 
have on our economy and in helping businesses of all sizes 
prepare for these extreme weather events, it also helps to 
generate new industries and jobs. And so we actually saw that 
prior to the COVID-19 pandemic the clean industries were the 
growth sectors of the U.S. energy economy and were adding all 
sorts of new diversified technologies to our portfolio. And 
generating some very high-paying jobs in the process. So I 
think that we can really achieve a double benefit by investing 
in clean and resilient technology that not only helps us better 
withstand some of the stressors on our economy but also helps 
to generate new industries.
    Chairman PHILLIPS. Thank you.
    And forgive me, my time is long expired. Forgive me.
    I am going to turn it over to Ms. Van Duyne for 5 minutes.
    Ms. VAN DUYNE. Great. Thank you.
    Chairman PHILLIPS. For 3 minutes.
    Ms. VAN DUYNE. Thank you very much.
    Mr. Glenn, in your testimony--first of all, thank you very 
much. I appreciate your testimony. You state that the primary 
challenge we, as small business owners face with staffing has 
come from the expanded unemployment benefits which has become a 
small business owner's biggest hurdle to recruiting and hiring 
candidates. Why do you believe this is such a hurdle and what 
should Congress do moving forward?
    Mr. GLENN. Thank you for the question. I am happy to 
address that.
    Not only me, but just in talking with other small business 
owners, the issue has been the same. We have gone, just as a 
side note, we as a sign company have gone and offered signage, 
now hiring signage to business neighbors of ours in the 
community. And we are trying to do everything we can. But the 
real issue is the competition is the federal government with 
the added unemployment subsidies that many have been receiving. 
A plus for us here in the state of Texas as Governor Greg 
Abbott has declined as of late last month, declined the Federal 
benefit for recipients receiving these. That has helped some 
with that. But just to give you an example, we have ads out on 
job lines. And these are good positions. These are graphic 
designer positions. These are equipment operators. And these 
are sales positions with a very competitive earning range. And 
we have received resumes with no qualification at all that just 
were not legitimate candidates for us. And so that is the type 
of challenges we are facing as small business owners. And 
again, it is just not isolated with me. I stay very close to 
the business community and through the chambers, the local 
chambers and business associations, and we are all facing the 
same here. And fortunately for me and the ones, the others that 
I speak with, the majority of us are in Texas and it is not as 
bad. It would really be a tough time if we were not in the 
state of Texas and were still up against these challenges. And 
people are not leaving their homes to seek jobs because 
financially, in my opinion, they do not have to at this point.
    Ms. VAN DUYNE. All right. Thank you.
    As you know, this administration is proposing a number of 
changes to the Tax Code to pay for their spending plans. While 
details continue to be debated, how could tax increases impact 
small businesses? And do you believe that it could impact 
investment decisions?
    Mr. GLENN. It would absolutely impact decisions that a 
small business owner would be forced to take. It would be 
critical for us that that cash would be at the expense of the 
operation of the business. The investment to our employees. The 
additional training. With the taxes we currently pay, I look at 
the taxes that I pay each year, and if I knew that money did 
not have to go to those areas, I think of all the other things 
that I could do to improve the business, to add more jobs. So 
it is very concerning with the uncertainty of any new taxes 
coming to us that we, as small businessowners, would shoulder 
the burden of those payments. It is very concerning.
    Ms. VAN DUYNE. Can you talk about the impact of rising 
costs and inflationary pressures on small businesses that 
operate on the margins as yours does? And do you think Congress 
should avoid policies that would increase inflation?
    Mr. GLENN. Congress should avoid that by all means. Let 
capitalism work at its best and free flowing without any 
interference. We have seen with our materials, specifically our 
plastic materials used to create signs are petroleum-based in 
many cases. We have seen increases along those around 30 
percent so far. And it is still coming up. Not only the 
increases but shortages. Additionally, aluminum products have 
gone up drastically for us. About 30 percent of our revenue is 
aluminum products and those have not only with shortages but 
increasing costs for us, we are very reluctant to stay 
competitive in the market to pass along those increases. We are 
absorbing some of that in our pricing but it comes to a point 
where you can no longer do that and sustain the business and 
make a profit. It is very challenging and the last thing we 
want is the government to become a factor with that.
    Ms. VAN DUYNE. We have discussed a number of challenges 
facing small businesses today from labor shortages to inflation 
to taxes. The topic of today's hearing is the SBA's role in 
climate solutions. When you think back on the last year, where 
did the climate issue rank in your list of concerns and do you 
think the SBA should be focusing on it over items like access 
to capital and labor issues?
    Mr. GLENN. If I look back at the past 16 months or 
basically all of 2020, the environmental issues would rank 
relatively low considering the other issues that were much more 
urgent as a result of the pandemic. And these were things that 
as a small business owner we, in many cases, had to totally 
reshape our business model. I was very fortunate that we were 
buffered by some of that with COVID-related signage. We did 
have some nice projects that kept people employed. But at the 
height of the uncertainty, we were making those adjustments as 
well. So any climate issues, they were not top of mind with not 
only just me but other small businesses outside my industry as 
well. It is not something that we were forced to deal with at 
the time. It was more how do we react and adjust our business 
to the uncertain economy of the past 12 months?
    Chairman PHILLIPS. Thank you, sir. The gentlelady's time is 
expired.
    Now I recognize the gentlelady from California, Ms. Chu, 
for 5 minutes.
    Ms. CHU. Dr. Abramson, as the clean economy rebounds from 
COVID and resumes its enormous growth across the country, it 
will be especially important to ensure that we have a trained 
workforce that can quickly step into skilled high-paying union 
jobs in the green economy. And we have an incredible 
opportunity to do that through President Biden's American Jobs 
Plan, especially through a new civilian climate corps. That is 
why I introduced H.R. 4220, the National Climate Service Corps 
and Careers Network Act of 2021 which would create a new 
program under AmeriCorps to complete climate-related projects. 
But most importantly, this bill will also create a new climate 
careers network to connect participants with high-paying, long-
term careers using the skills they acquired in the corps.
    So could you talk about the job placement needs of small 
businesses in the clean energy industry today and how you see 
that demand increasing as we make major investments into 
decarbonization? How can both a climate service corps and a 
dedicated climate careers network help clean energy small 
businesses find qualified and trained marine energy workers?
    Ms. ABRAMSON. Thank you, Congresswoman. I think that is a 
very important issue and I just want to acknowledge, I think 
some of the labor shortages that Mr. Glenn spoke about are 
challenges we have seen across small businesses. But unlike I 
think more typical small businesses, the clean energy economy 
has faced those labor shortages prior to the pandemic and I 
think the major factor influencing those shortages has been the 
lack of appropriately trained and skilled workers to support 
our industry.
    The U.S. Energy Employment Report, which is an annual 
report tracking trends in the clean energy economy and 
workforce has consistently reported that small businesses and 
large corporations in the clean energy sector face a shortage 
of appropriately skilled workers. And so I think getting more 
of these kinds of economic opportunities in front of 
communities training workers, whether it is through 
apprenticeship type programs such as what you are envisioning, 
working with our community colleges as well as our higher 
institutions of learning to make sure we are training people 
for the jobs of the future is very important.
    I also want to note that I believe that workforce 
development is critical to ensuring that the clean energy 
industry is more representative of the United States population 
as a whole. And we have seen that, for example, across energy 
sectors, and this is broadly speaking, women represent about 23 
to 32 percent of the workforce in the energy economy compared 
to roughly half of the workforce nationwide. And specifically, 
when it comes to small business leadership and ownership, we 
see that only about 7 to 8 percent of the Department of 
Energy's small business innovation research awards are going to 
women-owned or minority-led businesses. So this is a 
significant concern. I think that we see that the clean energy 
sectors are the growth sectors of the energy economy, and if we 
do not make sure that these are inclusive sectors then we will 
definitely be leaving whole segments of our population out of 
that potential for economic growth.
    Ms. CHU. Thank you for that.
    Mr. Chapman, I am so glad that you are here to talk about 
the importance of community resiliency for the small business 
economy. We know that climate cost disasters are increasing and 
having a terrible disproportionate impact on small businesses. 
In California, my state, wildfires in 2018 caused $150 billion 
in economic damage. And now that the state faces a historic 
drought, we have to prepare for a fire season that could be 
even more damaging. So that is why the National Climate Service 
Corps that I talked about could improve community resilience 
and complete projects that would address sustainability.
    Could you talk about what it would mean for your industry 
to mobilize thousands of young people across the country to 
complete these projects?
    Mr. CHAPMAN. Yeah. So we are also experiencing in the 
recreational boating industry I think the same thing that 
happens to a lot of industries in regards to finding the right 
or the qualified employees. And part of it is just because 
right now for us it is specifically technicians. It is 
specifically the technicians that work on the boats. I know 
that the automobile industry is having the same issue but 
trying to find those kind of skilled people just to come into 
the industry is very, very difficult. So a program like what 
you are talking about which would potentially bring young 
people into an industry that we are having a hard time getting 
young people to come into would be extremely beneficial.
    Ms. CHU. Thank you.
    I yield back.
    Chairman PHILLIPS. The gentlelady yields back.
    And now I recognize the Ranking Member on the Subcommittee 
on Underserved, Agricultural, and Rural Business Development, 
Mr. Hagedorn, the gentleman from Minnesota.
    Mr. HAGEDORN. Thanks, Mr. Chairman. I appreciate that.
    I agree with Ranking Member Van Duyne. I think this hearing 
is a little bit offtrack. We should probably be focusing more 
on the supply chain issues, labor shortages, and things that 
are really affecting our small businesses now. And frankly, I 
do not think there is any discernible positive outcome that 
anybody can point to as to these changes that people are 
talking about making. I would just add this though: you know, 
technology is great and we want better products, higher quality 
products, but they need to be at the same price. They need to 
be as reliable. And we do not always get that in this whole 
green energy sector. As a matter of fact, to put this in 
perspective, look, China, Communist China alone emits more 
carbon than all the developed countries in the world. Three 
times more than the United States. So I think we can talk about 
changes here of small businesses but it is going to mean 
nothing compared to what has to happen. If you think this is 
the big problem, you have got to go after China. You are going 
to have to go after India. And I do not think we should be 
taxing and burdening our own sectors more than that. If you 
really want to help the world get rid of carbon emissions, we 
should be producing way more natural gas in the United States, 
like in Congressman Meuser's district and exporting that to 
China so they can produce electricity cleaner, have more 
nuclear power. These are the things that make the big 
difference. And so those are great jobs in the United States. 
That means it creates wealth in the United States. It puts 
China in a position where they are dependent on us. But 
instead, this administration under Biden attacking U.S. energy, 
going after the lifeblood of our economy, it is absolutely I 
think disgusting what they are doing. And they are going to 
destroy our economy and our way of life if we are not careful 
and we cannot let that happen.
    So, you know, we do not want to exchange U.S. energy 
independence for dependence on China. And that is what we would 
have with a ``clean energy economy.'' China has cornered the 
market for the most part on rare materials and the minerals 
that we need for solar panels, wind generators, batteries for 
lithium. Why do we want to be dependent on China? Why would we 
not be dependent on the United States, independent like we are 
now, and we are going to lose that very quickly. It makes 
absolutely no sense. Our country became a great economic power 
because of homegrown U.S. energy, reliable, abundant, 
affordable, and we do not want to get away from that.
    So Dr. Abramson, I will ask you this. I have never met a 
small businessperson that said increase my energy costs. Not 
one. As a matter of fact, lower energy cost is really good for 
business. So I do not know if you represent any manufacturers 
or people like that but some of these manufacturers spend 15, 
20, 30 percent of everything they do and they produce on 
energy. So we are going to swap out energy sources that are low 
cost with energy sources that are not as low cost and certainly 
not as reliable. How does that help small businesses in that 
sector, manufacturing especially?
    Ms. ABRAMSON. Thank you, Congressman. And I agree with you. 
I think that reducing energy cost is critical for small 
businesses and manufacturers. And we actually, frankly, have a 
lot of manufacturers of clean energy technologies within our 
network. And they are consumers of energy as well.
    Mr. HAGEDORN. That is a piecemeal thing. The policies that 
the Democrat party is talking about are top-down Washington, 
D.C. policies that are going to pick winners and losers in the 
energy sectors and they are going to swap out all sorts of 
traditional technology for new technology. The new technology 
is not as reliable. The new technology is much more expensive 
and you cannot even do it on a grand scale today. It is not 
even feasible. If you went and did it today, we could not 
produce the electricity that we needed. So I mean, I understand 
you can have a business that puts up solar panels or something 
and you can say that is cheaper, but we are talking about the 
whole economy and we are talking about our whole energy sector. 
How is that going to be good to increase energy prices for our 
small businesses?
    Ms. ABRAMSON. Well, I want to actually start by clarifying 
some of the businesses within our network do work in the 
industries you mentioned such as natural gas and nuclear 
energy. And one of the things that we advocate for is a 
portfolio-based approach to diversifying our energy economy. 
And investing across the board in energy innovation. And some 
of the things you highlighted in terms of America's leadership 
in the energy economy I fully agree. I mean, we need to look at 
our critical minerals. We need to look at technologies across 
the board including looking at our fossil energy industry and 
ways to help it decarbonize and keep up with some of the 
technology innovations that we are seeing across the globe.
    Mr. HAGEDORN. Everybody is crossways here. I mean, in 
Minnesota, we have a mine up in Northern Minnesota that could 
produce all the copper we need but the people on the left do 
not want us to go get that copper. Instead, we have to rely on, 
for instance, China and others. And I think that, I agree, 
nuclear power is good. All these other things. But if we cannot 
swap out the technology and keep it as low cost, reliable, and 
abundant, we should not do it. And like I said, if you are 
really concerned about this issue, I would focus on China.
    I yield back.
    Chairman PHILLIPS. The gentleman's time is expired.
    I just remind my colleagues, this is not a hearing about 
China. It is not a hearing about mining. It is not a hearing 
about the price----
    Mr. HAGEDORN. Why is not a hearing on whatever I want to 
talk about, sir?
    Chairman PHILLIPS. I am just reminding colleagues that 
today's hearing is about how we support small businesses in our 
country, in Pennsylvania and Minnesota and California and 
Indiana and Texas, those who are suffering from the 
consequences of climate change, which is real. Plain and 
simple. Fires, low water tables, lack of snow. That is what 
today's----
    Mr. HAGEDORN. So what are you talking about doing today 
that is going to change anything tomorrow?
    Chairman PHILLIPS. So that is what today's topic is and I 
ask that my colleagues focus on that.
    Now I recognize the gentleman from Pennsylvania, Mr. Evans, 
for 5 minutes.
    Mr. EVANS. Thank you, Mr. Chair.
    My question is to Ms. Walk. There are a number of job 
opportunities in both construction and installation of energy 
efficient upgrades. How does the increase of energy efficiency 
and the decreased cost of electric renewable energies help to 
keep the energy intense American business competitive in a 
global economy and how can the 504 program help small 
businesses achieve this growth and competitiveness?
    Ms. WALK. Thank you for the question.
    You know, we have seen when our businesses are installing 
and looking to the green energy pieces to add renewable energy, 
you know, working closely with those providing installation. We 
have seen an increase in that really statewide here in doing 
that. And I think, the more that small businesses have access 
to renewable energy, the more that it makes sense for them from 
a business perspective, like some of the businesses I 
highlighted in my testimony. You know, the first business I 
talked about within there, the Comedy Club, their decision to 
include solar really ended up being a huge cost savings. You 
can see that in the comments that we heard from our other 
businesses as well. Something that they really were not 
considering but came about because of the 504 program ended up 
really having a great impact for the business, for the bottom 
line, and for the overall energy consumption of the business. 
So I think the 504, by taking what is in place, the 504 has a 
great system in place. It is a program that has been well-
established. And increasing those enhancements and making it 
more attractive to small businesses helps the entire energy 
consumption deplete and it helps our businesses save capital.
    Mr. EVANS. Do you have any kinds of suggestions of how we 
can augment the program in any way?
    Ms. WALK. Yeah. As I outlined, I think, one of the things 
that we could do especially with the equity injection, I think 
if we could open the program for businesses that are utilizing 
renewable energies and reduce the equity requirement from 10 to 
5 percent would be phenomenal. I think that would be a savings 
that would be welcomed by all of our borrowers as capital has 
become so critical. It is something you have heard over and 
over here today. I think you could look to increase the cap for 
energy projects as well. Right now it is at the 5.5. I think as 
costs increase, construction real estate, increasing that makes 
the program more dynamic for the years to come.
    Mr. EVANS. I thank you and I yield back the balance of my 
time, Mr. Chairman.
    Chairman PHILLIPS. The gentleman yields back.
    And now I recognize the Ranking Member on the Subcommittee 
on Economic Growth, Tax, and Capital Access, Mr. Meuser, for 5 
minutes.
    Mr. MEUSER. Thank you, Chairman Phillips. I appreciate 
that. Thank you, Dr. Abramson and all the other witnesses with 
us today. I appreciate you being here very much. It is an 
interesting topic.
    You know, I think it is okay, and I take the Chairman's 
words and my colleagues into consideration but I think it is 
fine to look at the big picture here. Small businesses, what we 
can do for them, the effects of climate change and how we can 
truly, what we can do to create an environment to help them be 
more competitive yet drive the idea of a cleaner climate; 
right? I mean, I think we all want the cleanest environment 
possible in the shortest time possible that is economically 
feasible. It must be economically feasible. And you know what 
is interesting about this debate, I tend to think that it has 
been polluted by politics; right? I mean, you are either in 
this debate, you are either a knuckle-dragging, climate-denying 
neanderthal or you are an environmental wacko; right? There are 
a lot of us in between. I certainly see myself as very much in 
between.
    So natural gas, we went through that. It has lower costs 
for businesses, so particularly in Pennsylvania. We have some 
of the lowest energy costs in the country, which absolutely 
should make us more competitive. It has also made the United 
States 2 years in the row having the least level of carbon 
emissions. We have to admit that. We can call it a transitory 
energy source and all, and that is fine. Let's get to something 
that is better. But it has proven to be important in both ways, 
costs and the environment.
    And do you know what is interesting? All of us as members 
and, you know, you visit small businesses, mid-size businesses, 
large businesses. They are finding it to be kind of cool to 
become green; right? I mean, there are all kinds of new energy 
efficiency measures taking place. You know, the lights are 
going off when you leave a room. They are investing in solar 
panels. Employees like it. You know, it is a trend. It is a 
private sector trend and it is happening in rural Pennsylvania 
and in urban Pennsylvania. So it must be throughout the country 
as well. So those are very important things.
    So what we need to do is we need to help businesses do 
that. We can remind them. Groups like yours I think are good to 
make sure they know what is available, what the resources are, 
what sort of tax credits. But at the same time that we are 
talking about low interest loans, we cannot be talking about 
tax increases because China does fall into the big picture 
here; right? Because when our small businesses become less 
competitive, that makes frankly the Amazons more attractive. 
And, you know, unfortunately, most of what people buy from 
Amazon comes from China where China, by the way, is making 
something like one coal plant, building one coal plant a week 
or something insane like that. So it does come into play here 
and it is sort of a big picture situation.
    As well, what we have done with gasoline. Look at the cost 
of gasoline. That is because of the rattling of the oil 
industry; right? And at the same time, I do not know how many 
people know this, Russia's imports to the United States for oil 
is at an all-time high. So what sense does that make; right? We 
do it in a cleaner way. We should pursue that with, again, 
economically feasible regulations.
    So, and we do have many tax credits, Dr. Abramson and 
others; right? I mean, it is 26 percent Federal reduction for 
solar panels. Okay. That is fine. States have additional. Many 
states do. We have a $7,500 tax credit for EVs. Right? So wind 
turbines have very extended programs and they are very 
controversial in Pennsylvania because they are not so 
environmentally friendly when you put them in. They are really 
troublesome, particularly if they are near any residential 
areas.
    Anyway, I have said a lot. I am going to ask you, since you 
are sitting here, Dr. Abramson, to react to some of the things 
that I have said.
    Ms. ABRAMSON. Thank you. And there is a lot to unpack 
there. But first, I want to thank you for your comments that 
this does not have to be such a political issue. And I want to 
point out that a lot of our members are all across the 
political spectrum and are in this because they see this as an 
economic opportunity. And you talked about some of that. And I 
want to highlight that, yes, natural gas has played a huge role 
in the decarbonization of our economy as well as the growth of 
affordable clean energy. And we really believe that setting 
goal-based approaches for what directions we want to see in 
terms of decarbonization as well as affordability and 
reliability and resilience and then allowing different 
technologies to compete in that market is really the way to get 
there rather than necessarily picking winners and losers. That 
does not mean we do not necessarily want to invest in 
technology hurdles to overcome particular challenges that the 
hydrogen economy might face or storage or solar, et cetera. But 
we think that market-based approaches are the way to go.
    On the Tax Code issues, I mean, we have focused more on the 
incentive side of things and I do believe that the clean energy 
tax incentives have been critical for fostering market pathways 
to help reduce the costs of these technologies and really get 
them to the point where now increasingly the cleanest sources 
of energy are becoming the cheapest and I am really interested 
to see the conversations going on in both the House and Senate. 
And in fact, in the House, in quite a bipartisan manner, 
looking at potential pathways down the road where we can 
encourage sort of technology-neutral, goal-based approaches to 
the Tax Code. I think the certainty that has been provided with 
technology-specific tax credits has been incredibly valuable 
but we recognize that ultimately at some point, you know, we 
have to think about these goal-based approaches. And so----
    Mr. MEUSER. Thank you. I am sorry.
    Ms. ABRAMSON. Yeah.
    Mr. MEUSER. I am way past my time.
    Ms. ABRAMSON. No worries, but thank you very much, 
Congressman.
    Chairman PHILLIPS. The gentleman's time is expired but we 
are going to move to a brief second round. And frankly, Mr. 
Meuser, I really appreciate this exchange and your comments, 
and if you are willing, we can come back to it in a moment.
    With that, we will move to a second round. I will recognize 
myself for 5 minutes.
    Mr. Chapman, I think you would agree, as probably most 
Committee members would agree and most small business owners, 
the labor shortage is an issue. Inflation is an issue. Energy 
costs are an issue. Tax burdens are a challenge. But because 
today's topic is about the effects of climate change on 
business and how we can support small businesses, describe for 
us what you think would happen if we addressed all those other 
issues but we did nothing to support resiliency amongst small 
businesses in the United States.
    Mr. CHAPMAN. Yeah. It is a tough topic, right, because I 
was just thinking as I was listening to this last response that 
I just wanted to use an example of something so simple that 
Sunnyside Marina just took advantage of. We just changed out 
our lighting. We went to all LED lighting in our warehouse, in 
our shop, in our ship store. We spent about $8,000 to do it. 
Excel Energy was nice enough to give us a rebate of about 
$2,000. So we put $6,000 into this project. But guess what else 
happened? We lowered our electric bill by $200 a month, which 
obviously is going to pay off quickly; right? So, you know, 
these are simple things that can be accomplished without, you 
know, really changing the world.
    But in regards to how we look at climate change and how we 
look at what kind of things can happen to us, again, we are in 
a low water situation right now. We literally have boats in St. 
Paul, Minnesota, that are in their slips, sitting on the 
ground. They do not have enough water to float. That is 
obviously a dredging issue. But all of these things are related 
to climate change; right? So what happens if we do not do 
anything? If we do not try to give these small businesses the 
opportunity again to be prepared to spend the money that they 
need to spend and with the help of the Small Business 
Administration maybe lending them money to help get some of 
this dredging done or get some of this other stuff done that 
needs to be accomplished in order for them to stay in business. 
You know, we need to see these small businesses not be able to 
succeed simply because we do not want to address the issue just 
because it might be related to climate change.
    Chairman PHILLIPS. I appreciate it, Mr. Chapman.
    Mr. Glenn, I know you are in Texas, a small business owner, 
and you referenced a lot of the challenges small businesses 
face, and I concur. They are all issues that we should consider 
and address. But maybe share with us for a few moments if you 
would about what impact on your business you are seeing in 
Texas relative to changing climate, weather events, droughts, 
the like. And equally importantly, on your customers. The ones 
that come to you for signs.
    Mr. GLENN. Sure. Thank you for the question.
    You know, one of the things we have seen and observed is we 
have directly been impacted with some of the things, and one of 
the most recent impacts climate-wise was the winter storm that 
Texas faced in February. We were closed, along with most other 
businesses. We were closed for over a week so that definitely 
hurt things. We had to be innovative on how we reacted to that. 
We set people up remotely for work environments and tried to 
make do as best we could with the business. But in terms of 
some of the things that we do environmentally and how we can 
contribute to that, I would like to share a little bit about 
what we do in our business and some of the characteristics of 
the things that we have and where we can kind of shrink our 
carbon footprint.
    So 30 percent of my revenue of selling signs is aluminum 
signage. That is various types of signs made from aluminum 
products is 30 percent. So in an ideal world we would use a 4-
by-8 sheet of aluminum, cut the sizes we need from that. In an 
ideal world we would have zero scrap. But that is not reality. 
We have remnants. We have scraps. And at 30 percent of a $5 
million business, that is a fair amount of scraps and aluminum 
that otherwise we could just discard. But we make a point, 100 
percent of that is recycled. And, you know, aluminum has a lot 
of different uses other than just the sign industry, of course.
    But to put that in perspective, in our volume and in our 
operation and within my production areas, that equates to three 
or four trailer loads of scrap aluminum that we are recycling 
every year. And so those are things like that. You know, Mr. 
Chapman mentioned LED lights. We have done that. You know, 
these are the small things that will make a difference with us.
    Another thing I would bring up, too, and this is really 
something that is probably not on the surface that anyone would 
thing about but we have wide-format sign printers in our 
business. And the ink cartridges, and how many ink cartridges 
we go through in a year, and just in my operation, extrapolate 
that out within the industry, but we make a point to recycle 
the ink cartridges. And keep in mind, these cartridges are 
approximately the size of a small shoebox. So they are not 
something that you would just want to toss anywhere. So there 
is a recycling program for that as well.
    So these are some things that in our business that we do to 
try to impact or lessen the impact that we have on the 
environment. And so I just wanted to share those with you and 
just kind of let you know kind of what we are doing out here, 
you know, on those fronts.
    Chairman PHILLIPS. Thank you, sir. And we salute and 
celebrate those efforts with gratitude.
    With that I will recognize my friend from Pennsylvania, Mr. 
Meuser, for another 5 minutes.
    Mr. MEUSER. Well, thanks again, Mr. Chairman.
    So, Dr. Abramson, you went through a list earlier of some 
of the things and resources and advocacies and assets you have 
available for small business. Could you give me a summary of 
how you could help and advocate some businesses in my district 
or any of our districts for that matter?
    Ms. ABRAMSON. Thank you, Congressman.
    So I think one of the important things we have talked about 
is trying to help make energy affordable for all small 
businesses. And I think some of the programs that we discussed 
today, 504, other sorts of financing assistance for modernizing 
energy infrastructure and ensuring that our small businesses 
are getting the most out of their money is really critical. And 
we see those kinds of assistance programs provided at the 
Federal, state, and utility level.
    On the flipside, too, we have the providers of energy 
technologies, and I have spoken a lot about energy innovation 
in this hearing. And I would say about a quarter to a third of 
the members that I work with are earlier stage companies. And 
they really excite me because they represent the promise of the 
energy future and the economy.
    And so I mentioned some of the critical Federal investments 
that are very important to helping to get their ideas off of 
the table and turn them into real businesses. And those include 
things like RPE, SBIR, America's Seed Fund, America Made 
Challenges program. And these have enjoyed bipartisan support 
because these types of programs really have helped with energy 
innovation and addressing our competitiveness son a global 
scale.
    We have outlined some proposed improvements to make some of 
these programs even more impactful and accessible. And so 
actually, in my written testimony, I have included a link to a 
letter where we have 115 business signatures recommending some 
improvements to SBIR. These are all pretty much low or zero 
cost types of proposals that can be administered, some of them 
accomplished through administrative action and some through 
legislation. And they include things like trying to make the 
various SBIR programs across the Federal agencies more uniform, 
learn what is working best at particular agencies and apply 
those best practices across the board. They include things such 
as making permanent certain pilot programs that have helped 
these agencies improve their administration of the programs or 
commercialization, providing more flexibility to small 
businesses in how they can use their technical and business 
assistance funds, encouraging the use of short form 
applications for the first round of review so that companies do 
not waste their time on 60-page applications if it turns out 
their technology is not a good fit.
    And then one thing I wish that we could sort of get a 
message across to the Department of Energy in particular to 
learn from some of the other agencies is they have sort of in 
recent years adopted a practice of allocating their SBIR funds, 
which is a 3.65 percent set-aside of their extra grant funds 
according to the specific subaccounts of the agency. And we do 
not think that that is the best way to do it. Just sort of 
allocating it across the broader accounts such as Office of 
Science, Energy Efficiency, Renewable Energy, and Fossil Energy 
would be better because right now the way they are doing it, 
for some of the smaller accounts they can maybe cobble together 
one SBIR award a year. And it also kind of hinders their 
flexibility to call for more open solicitations for novel 
technology ideas that might not be envisioned.
    So those are just a handful of the recommendations. Our 
letter details these in further depth but I think, in sort, 
basically, on both the customer side and the provider side we 
really need to think about what small businesses need and make 
sure that the federal government is supporting them.
    Mr. MEUSER. That is great.
    I have limited time. I just want to ask Mr. Glenn, is there 
something you are hearing today or do you have any further 
comments where we can advocate for you or perhaps resources 
discussed during this hearing would be of use to a business 
like yours?
    Mr. GLENN. Sure. Thank you for inquiring and checking with 
me on that. As a small business owner, the fear for us is 
uncertainty. And we look for certainty practically in every 
step of the way where we can make the best decisions for our 
business. And you know, as an entrepreneur you have to be a 
certain amount of a risk taker. So with uncertainty, that just 
increases risk. You know, but the largest thing and some of the 
largest concerns which I have touched on in my testimony is 
what is the chances of additional tax burdens? Those are things 
that quite frankly will keep me up at night. It is, how does 
that impact my cashflow? How does that impact my balance sheet? 
If it does, how do I make the adjustments? All of these series 
of events are what goes through a small business owner's mind 
as far as how do I adjust? You have to constantly be aware of 
what are your challenges of the day, so to speak? What are the 
long-term challenges? What are the immediate challenges? And 
those are the things that we look for to thrive with our 
business and to create more jobs and to become profitable and 
create wealth is, you know, taking out some of the uncertainty 
that could originate from the government. And you know, quite 
frankly, let capitalism work to its fullest extent and without 
interference. And there is a long history of that and a long 
history of success with that. And so those are the things that 
a small business owner, that is some of their greatest concerns 
is what I would add.
    Mr. MEUSER. Thank you very much. I appreciate your 
testimony.
    I yield back, Mr. Chairman.
    Chairman PHILLIPS. The gentleman yields back.
    And with that, we will conclude our questioning.
    And I want to thank all of our witnesses. Heartfelt 
gratitude for joining us today. Your testimony has shed light 
on the economic challenges that you are all facing, that the 
country is. But also the opportunities that lie ahead for us.
    You know, climate change is real. We are seeing it right in 
front of our eyes, whether it is Mr. Glenn having to close his 
business for a week because of winter storms in Texas; whether 
it is boats sitting on lakebeds in Minnesota or a lack of snow 
in Northern Minnesota for snowmobilers, not to mention the 
horrors we are seeing in the West right now as fires rage. It 
is real. The question is, are we going to do something about 
it? Are we just going to hope that businesses survive? I would 
argue, and I believe my colleagues agree, and the point of 
today's hearing was to elevate the need to provide investment 
resources to small business to become more resilient. That is 
what this hearing is all about, how to protect small 
businesses.
    COVID-19 has only highlighted that even the most 
sophisticated, well-staffed, well-resourced and profitable 
companies are still terribly vulnerable to unanticipated 
shocks. We have learned that there has to be greater government 
capacity to anticipate and then deal with major public crises. 
And for members of this Committee, I believe that means working 
to ensure that small businesses have support from the SBA and 
other programs as they experience the consequences of climate 
change. The crisis poses challenges, of course, for American 
small businesses and the SBA programs have to anticipate those 
and reflect that reality.
    On this Committee, many of us like to say there is no 
partisanship when it comes to small businesses, and I think the 
same should go for the protection of our planet. Not just the 
planet, mind you. This is about our children and our 
grandchildren. Earth will survive. Earth will survive. The 
question is, will our children survive? Will humanity survive 
these consequences. The question is not whether they are 
manmade or not. The question is how are we going to accommodate 
it, anticipate it, and address it, and that should be our 
concern. And small businesses as the backbone of our entire 
economy, have to be prepared for these realities.
    So I look forward to working with my colleagues on both 
sides of the aisle as we seek to ensure that small firms 
benefit from the creation of a more sustainable and resilient 
economy and ultimately, a more livable planet for our 
descendants.
    I would ask for unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    And without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are now adjourned. And I thank you all.
    [Whereupon, at 11:20 p.m., the Subcommittee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
